No. 19-992

In the Supreme Court of the United States
GREG SKIPPER, WARDEN, PETITIONER
v.
CURTIS JEROME BYRD
MOTION TO EXTEND TIME TO FILE A REPLY BRIEF
FOR A WRIT OF CERTIORARI

To the Honorable Sonia Sotomayor, Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Sixth Circuit
Pursuant to this Court’s March 19, 2020 Order, Warden Greg Skipper
respectfully requests that this Court delay distribution of his petition for a writ
of certiorari in Byrd v. Skipper, No. 19-992, until the May 5 distribution deadline for the May 21, 2020 conference, due to difficulties related to COVID-19.
1.

Curtis Byrd filed a habeas corpus petition alleging that he was be-

ing held in violation of his Sixth Amendment right to effective assistance of
counsel on his conviction for first-degree felony murder, assault with intent to
rob while armed, and felony-firearm.
In his petition, Byrd raised both an ineffective-assistance-of-trial-counsel
claim and an ineffective-assistance of appellate-counsel claim.
2.

The district court initially dismissed all but one of Byrd’s habeas

claims—his ineffective-assistance claim. After an evidentiary hearing, the district court denied habeas on that claim as well.

-23.

Byrd appealed the denial of habeas only on the ineffective-assis-

tance claim to the Sixth Circuit, which reversed the district court’s denial of
habeas in a 2-1 decision.
4.

Petitioner Warden Greg Skipper filed a writ of certiorari on Feb-

ruary 5, 2020, arguing, among other things, that the decision in Byrd conflicts
with the Supreme Court’s decisions in Missouri v. Frye, 566 U.S. 134 (2012) and
Lafler v. Cooper, 566 U.S. 156 (2012).
5.

Respondent Curtis Byrd filed his brief in opposition on April 7,

6.

Based on the filing date of the brief in opposition, without an ex-

2020.

tension of time, Petitioner’s reply brief would need to be at the court by the April
23, 2020 distribution deadline.
7.

Warden Greg Skipper respectfully requests that this Court delay

distribution of his petition for a writ of certiorari until the May 5 distribution
deadline based on difficulties resulting from the COVID-19 crisis. As the lead
attorney and drafter, the undersigned’s efforts to draft the reply have been delayed by her involvement in a COVID-19-related project of some magnitude
for the State of Michigan. The work on that project is in addition to the regular press of business in the Department of Attorney General. Additionally, the
undersigned is working remotely from home, which has provided challenges.
8.

The later distribution date effectively creates a 12-day extension

on the rely brief, which is reasonable given the circumstances.

-39.

This request comes well before two days prior to the requested

distribution date, as specified in this Court’s April 19, 2020 order.
10.

Respondent does not object to the granting of this request.

In sum, Michigan requests that the Court delay distribution of Petitioner Skipper’s petition for a writ of certiorari until the May 5 distribution
deadline for the May 21, 2020 conference.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212,
Lansing, MI 48909
HammoudF1@michigan.gov
(517) 335-7628
/s/ Ann M. Sherman
Ann M. Sherman
Deputy Solicitor General
Dated: APRIL 17, 2020

Attorneys for Petitioner

